                             CLOSEOUT FOR M93070040
       On July 27, 1993,
(Program in the Division of
of the Directorate                                   , informed OIG that the curriculum vitae
of one PI on a multiple PI proposal being reviewed by a panel allegedly contained false claims
about the PI'S authorship of publications.

       A reviewer,                   from the University
,            the subject's, curriculum vitae (CV) submitted with proposal
I
                                                   listed several publications under the heading
"Publications" that the subject had not authored.

        OIG reviewed this CV and found that it contained citations for six publications and only
one of those included the subject's name as an author. OIG determined that none of the other
five publications was authored by the subject. Indeed some of them were so old they could not
have been authored by the subject. OIG reviewed the subject's prior proposal submissions and
found that none of the five publications were listed in the accompanying CVs. When ordered
chronologically, these CVs contain an increasing list of publications-the newer CVs listed
recent publications and repeated citations for papers cited in previously submitted CVs. The
most recent CV of this group contained a list of 12 publications. The CV that is the focus of
this inquiry did not follow this pattern, but cited fewer publications than the preceding CVs and
included the five publications that the subject clearly could not have authored.

        In response to OIG's inquiry the subject said that the citations appearing in the CV
accompanying his most recent submission were actually supposed to be part of the proposal's
bibliography. During the proposal's preparation one of the co-PI'S secretaries had inadvertently
replaced the publications list in his CV with part of the bibliography. The co-PI confiied the
subject's statement. With the exception of those that were so old he could not locate copies, the
subject provided a copy of the cover page from each publication listed in the CVs accompanying
his prior proposal submissions to show his authorship or his role in developing the document.
In response to OIG's request the subject reviewed the most recent proposal and its bibliography
and found a citation error in the proposal text and several omissions from the bibliography.

       OIG concluded that the evidence supported the subject's statement that part of the
proposal's bibliography had inadvertently been substituted for the list of publications he had
consistently supplied with his CV. There was no reason for him to substitute a list of fewer
publications that cited books he clearly could not have authored for his own longer publication
list.

                                          Page 1 of 2
                             CLOSEOUT FOR M93070040

        At OIG's request the subject corrected the single citation error in the proposal text, as
well as the proposal's bibliography, and the publication list accompanying his CV.            He
forwarded the pages containing these corrections to the program where they were incorporated
into the proposal jacket.

       OIG concluded there was no substance to the allegation that the subject had falsely
attempted to claim authorship of the five publications. The subject had corrected the errors in
the program jacket. OIG closed this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
